APPENDIX TABLE OF CONTENTS
Opinion and Order
Order of the United States Court of Appeals for
the Ninth Circuit (March 25, 2020).................. la
Order of the United States District Court for
the Central District of California
(November 4, 2019)...................................

3a

Order of the United States Court of Appeals
for the Ninth Circuit Denying Motion for
Reconsideration (August 4, 2020).................... 10a

App.la
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(MARCH 25, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID HEGLAND; ET AL.,
Plain tiffs-Appellan ts,
v.
NICOLA T. HANNA,
Defen dan t-Appellee.
No. 19-56401
D.C. No. 2:19-cv-04492-R-AFM
Central District of California, Los Angeles
Before: TASHIMA, FRIEDLAND,
and MILLER, Circuit Judges.
A review of the record and appellants’ response
to the motion for summary affirmance indicates that
the questions raised in this appeal are so insubstantial
as not to require further argument. See 9th Cir. R. 36(a)(2); United States v. Hooton, 693 F.2d 857, 858
(9th Cir. 1982) (stating standard); see also Gilbert v.
DaGrossa, 756 F.2d 1455, 1458 (9th Cir. 1985) (‘Where
a suit has not been consented to by the United States,
dismissal of the action is required.”).

App.2a
Accordingly, appellee’s motion to summarily affirm
the district court’s judgment (Docket Entry No. 6) is
granted.
AFFIRMED.

App.3a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA
(NOVEMBER 4, 2019)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
DAVID HEGLAND, ET. AL.
v.
NICOLA T HANNA
No. 2:19-cv-04492-R-AFM
Before: The Hon. R. Gary KLAUSNER,
United States District Judge.
Proceedings: (IN CHAMBERS) Order Re: Defendant’s
Motion to Dismiss (DE 9)
I.

Introduction

On August 27, 2019, Defendant Nicola T. Hanna,
in his official capacity as United States Attorney for
the Central District of California (“Defendant”) filed
his Motion to Dismiss Plaintiffs’ Complaint pursuant
under Federal Rules of Civil Procedure 12(b)(1) and
12(b)(6).
For the following reasons, the Court GRANTS the
Motion.

App.4a

II.

Plaintiffs’ Allegations!

Pro se Plaintiffs are seven individuals residing
in Iowa and Jacksonville. On May 29, 2019, Plaintiffs
filed their “Petition for Declaratory and Injunctive
Relief and for Writ of Mandamus” (“Compl.”) seeking
to compel the United States Attorney’s Office for the
Central District of California to bring Plaintiffs before
the grandy jury to present evidence regarding a
financial fraud. (DE 2).
Attached as Exhibit A to Plaintiffs’ Complaint is
a January 7, 2019 letter to Defendant requesting that
Defendant “present evidence to either or both the
regular and/or special grand jury concerning crimes in
your district in order to trigger an investigation” and
that Defendant “prosecute certain individuals for secu­
rities fraud.” The letter further provides background
regarding the financial fraud, stating that roughly
“1400-1700 individual investors, many non-accredited,
were solicited to invest in a movie company called
Legends of Oz: Dorothy’s Return.” According to the
letter, approximately $120,000,000 was raised for the
movie, which generated $18,000,000, and the fraudu­
lent fundraisers took nearly $73,000,000 in fees.
Plaintiffs further attach a 92-page document as
Exhibit B to their Complaint and characterize it as a
“summary of the crimes Plaintiffs seek to present to
the grand jury.” Based on these facts, Plaintiffs
believe they have been defrauded and ask this Court
to “declare” the following:

1 Plaintiffs’ allegations are accepted as true only for the purposes
of this motion.

App.5a

•

“Petitioners have a First Amendment right to
Petition their Government for the redress of
grievances.”

•

“[T]he federal grand jury is an arm of that
government.”

•

“[Cjitizens are entitled to present their griev­
ances, in person, to their fellow citizens on the
grand jury, without blocking or ‘stonewalling’
by the U.S. Attorney or his minions.”

Plaintiffs also seek an order, pursuant to the
Administrative Procedures Act (“APA”) “directing the
U.S. Attorney to introduce the Plaintiffs to their fellow
citizens on the grand jury, in person, to prevent inter­
ference by the U.S. Attorney or his staff.”
III. Judicial Standard
Federal Courts are courts of limited jurisdiction.
On a motion to dismiss under Rule 12(b)(1), the plain­
tiff has the burden of establishing that the court has
subject matter jurisdiction. Kokkenen v. Guardian
Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994). Because
jurisdiction is a preliminary issue, a court must first
determine it has jurisdiction before proceeding to rule
on the merits of a case. Sinochein Inti co. v. Malaysia
Inti Shipping Corp., 549 U.S. 422, 430-31 (2007).
A motion to dismiss under Rule 12(b)(1) may be
“facial” or “factual.” See Safe Air for Everyone v. Meyer,
373 F.3d 1035, 1039 (9th Cir. 2004). In a facial attack,
the challenger asserts the allegations contained in a
complaint are insufficient on their face to invoke fed­
eral jurisdiction. Id. The court must assume the factual
allegations in the complaint are true and construe
them in the light most favorable to the plaintiff. See

App.6a
Warren v. Fox Worldwide, Inc., 328 F.3d 1136, 1139
(9th Cir. 2003). However, the court need not accept as
true legal conclusions pled as factual allegations. Id. A
Rule 12(b)(1) motion will be granted if, on its face, the
complaint fails to allege grounds for federal subject
matter jurisdiction as required by Rule 8(a). See id.
Under Rule 12(b)(6), a party may move to dismiss
for “failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). “To survive a motion
to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.”’ Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp v. Twombly, 550 U.S.
544, 570 (2007)). A claim is plausible if the plaintiff
alleges enough facts to draw a reasonable inference
that the defendant is liable. Iqbal, 556 U.S. at 678.
A plaintiff need not provide detailed factual allegations
but must provide more than mere legal conclusions.
Twombly, 550 U.S. at 555. However, “[tjhreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.” Iqbal,
556 U.S. at 678.
VI. Discussion
Defendant moves to dismiss Plaintiffs’ Complaint
pursuant to Rule 12(b)(1) and 12(b)(6) for three reasons.
First, Defendant argues that this Court lacks subject
matter jurisdiction because Plaintiffs’ claims are barred
by sovereign immunity. Second, Defendant argues that
Plaintiffs fail to state a claim under the Declaratory
Judgment Act. Third, Defendant argues that Plain­
tiffs’ Complaint fails to comply with minimal federal
pleadings standards because it consists of voluminous,
vague and mostly incomprehensible allegations.

App.7a

A. Plaintiffs’ Claims Are Barred by Sovereign
Immunity.
Under the doctrine of sovereign immunity, a sove­
reign entity is subject to a court’s jurisdiction only
when it consents to be sued. United States v. Sherwood,
312 U.S. 584, 586 (1941). A lawsuit seeking injunctive
relief against a federal officer in his official capacity is
similarly barred by the doctrine of sovereign immunity
unless that immunity has been expressly waived.
Larson v. Domestic & Foreign Commerce Corp., 337
U.S. 682, 687 (1949).
Plaintiffs seek judicial review of Defendant’s deci­
sion—in his official capacity as U.S. Attorney to decline
Plaintiffs’ request to allow them to present informa­
tion to a grand jury. Plaintiffs ask this Court to declare
that Plaintiffs’ inability to present evidence, in person,
to a grand jury violates constitutional and statutory
rights. Plaintiffs further seek injunctive relief requir­
ing Defendant to allow Plaintiffs access to a grand
jury. Plaintiffs claim that this Court has subject matter
jurisdiction over these claims pursuant to 28 U.S.C.
§§ 1331, 1361, 2201 and 2202.
Plaintiffs do not appear to dispute that sovereign
immunity generally extends to Defendant in his official
capacity. Plaintiff also do not and cannot dispute that
four of the statutes under which they bring their
claims—28 U.S.C. §§ 1331, 1361, 2201 and 2202—do
not waive sovereign immunity for the United States
and its officers in their official capacities, including
Defendant. Pit River Home & Agr. Co-op. Ass’n v.
United States, 30 F.3d 1088, 1098 (9th Cir. 1994)
(“Sections 1331 and 1361 do not waive the sovereign
immunity of the United States.”) (citing Holloman v.
Watt, 708 F.2d 1399, 1401 (9th Cir. 1983); Smith v.

App.8a
Grimm, 534 F.2d 1346, 1352 n. 9 (9th Cir.); Brownell
v. Ketcham Wire & Mfg. Co., 211 F.2d 121, 128 (9th
Cir. 1954) (stating that 28 U.S.C. §§ 2201-2202 does
not waive sovereign immunity) (citations omitted).
Plaintiffs appear to contend, however, that the Admin­
istrative Procedure Act (“MA”), 5 U.S.C. § 702 et.
seq. waives Defendant’s sovereign immunity.
But the APA’s waiver of sovereign immunity does
not apply where “agency action is committed to agency
discretion by law.” 5 U.S.C. § 701(a)(2). And decades
of binding precedent hold that an agency’s decision to
prosecute, enforce or bring charges before a grand
jury is within the prosecutor’s absolute discretion. See,
e.g., Heckler v. Chaney, 470 U.S. 821, 831, 105 S. Ct.
1649, 84 L.Ed.2d 714 (1985) (“[A]n agency’s decision
not to prosecute or enforce, whether through civil or
criminal process, is a decision generally committed to
an agency’s absolute discretion. This recognition of
the existence of discretion is attributable in no small
part to the general unsuitability for judicial review of
agency decisions to refuse enforcement.”) (citations
omitted). It is therefore clear that the APA does not
create a private cause of action in Plaintiffs to compel
Defendant to prosecute or present evidence to a grand
jury because that decision is committed to agency dis­
cretion by law. See, e.g., City & Cty. of San Francisco
v. U.S. Dept of Transp., 796 F.3d 993, 1004 (9th Cir.
2015) (“As we have explained, decisions not to enforce
are presumptively unreviewable under 5 U.S.C. § 701
(a)(2).”)

Plaintiffs—who have the burden of overcoming
sovereign immunity—offer no authority to contradict
that the issues present in this case fall squarely
within Defendant’s discretion by law, and the Court has

App.9a

located none. Consumer Fin. Prot. Bureau v. Nation­
wide Biweekly Admin., Inc., CV 15-02106 RS, 2016
WL 2961868, at *4 (N.D. Cal. May 23, 2016) (“[B]efore
a party may seek review of federal agency activity
under the APA, he or she must first clear the hurdle
of Section 701(a), which provides that APA’s waiver
of sovereign immunity does not apply 'to the extent
that agency action is committed to agency discretion
by law.’”). Plaintiff has identified no further statutes
or other authority for waiving Defendant’s immunity
in this case, and the Court has located none.2
Thus, Defendant retains sovereign immunity, the
Court does not have jurisdiction over Defendant, and
dismissal of this case is proper. Because this Court
lacks jurisdiction, the Court need not, and does not,
reach other arguments raised by the parties.
V.

Conclusion

For the foregoing reasons, the Court GRANTS
Defendant’s Motion to Dismiss (DE 9).
IT IS SO ORDERED.
CCH
Initials of Deputy Clerk

2 The Complaint references the Special Grand Jury statute, 18
U.S.C. §§ 3331-32, but that statute does not create a right for
citizens to require a United States Attorney to prosecute or allow
citizens to present evidence to a grand jury. Arnett v. Unknown,
No. CV 11-5896-JAK E, 2011 WL 4346329, at *5 (C.D. Cal. Aug.
23, 2011), report and recommendation adopted, No. CV 11-5896JAK E, 2011 WL 4344103 (C.D. Cal. Sept. 15, 2011).

App.lOa
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
MOTION FOR RECONSIDERATION
(AUGUST 4, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID HEGLAND; ET AL.,
Plain tiffs-Appellan ts,
v.
NICOLA T. HANNA,
Defendan t-Appellee.
No. 19-56401
D.C. No. 2:19-cv-04492-R-AFM
Central District of California, Los Angeles
Before: TASHIMA, FRIEDLAND,
and MILLER, Circuit Judges.
Appellants have filed a request that this court dis­
close the identities of, and information pertaining to,
certain court personnel (Docket Entry No. 9) and a
combined motion for reconsideration and motion
for reconsideration en banc (Docket Entry No. 10).
The request for disclosure is denied.

App.lla

The motion for reconsideration is denied, and the
motion for reconsideration en bands denied on behalf of
the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed
case.

SUPREME COURT
PRESS

